 THE ROLE AND FUNCTIONS OF
    THE VOLPE NATIONAL
  TRANSPORTATION SYSTEMS
          CENTER

Research and Special Programs Administration

        Report Number: SC-2004-077
        Date Issued: August 4, 2004
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit Report on the Role and Functions            Date:    August 4, 2004
           of the Volpe National Transportation Systems
           Center, Research and Special Programs
           Administration
           SC-2004-077

  From:    Alexis M. Stefani                                      Reply to
                                                                  Attn. of:   JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Deputy Secretary
           Chief of Staff
           Deputy Administrator, Research and Special
            Programs Administration

           This report presents the results of our review of the Volpe National Transportation
           Systems Center’s (Volpe) role and functions. This audit was requested by
           Representative Ernest J. Istook, Chairman of the House Appropriations
           Subcommittee on Transportation, Treasury and Independent Agencies. Chairman
           Istook requested that the Office of Inspector General (OIG) conduct an audit to
           determine: (1) how Volpe’s role and functions have changed over the years and
           whether current Volpe activities meet the Department of Transportation’s (DOT)
           needs, (2) if Volpe has the necessary financial controls in place to assure its
           service fees are appropriate, and (3) DOT’s role in overseeing Volpe and whether
           that role is adequate to ensure that Volpe provides cost-effective services.

           To address Congressman Istook’s request, we plan on issuing three reports. This
           report addresses Volpe’s role and functions in the Department and whether Volpe
           is meeting DOT’s needs. The second and third reports will cover Volpe’s
           financial controls and program management oversight, respectively. (See
           Exhibit A for a discussion of our audit objective, scope, and methodology.)
           During the course of our audit, three other studies of Volpe were conducted—two
           by the Research and Special Programs Administration (RSPA) and one at the
           direction of the Secretary. The Secretarial review, which is to be completed later
           this year, will incorporate the work done by RSPA and the OIG.
                                                                                                                                                                           2


RESULTS IN BRIEF
With its transfer from the National Aeronautics and Space Administration (NASA)
to DOT in 1970, Volpe was to be “…a central research and development facility
of the Department of Transportation....” Yet, until recently, the lack of
departmental oversight, coupled with a reliance on customer funding, have led
Volpe into areas that raise questions as to whether such work represents the best
use of the Center’s resources and to what extent benefits will be derived for DOT.
The following summarizes our three outcomes.

ü Volpe’s mission and role need to be better defined. Over the last 30 years,
      Volpe’s mission and role have significantly changed. From an organization
      focused primarily on research and development (R&D) work for DOT,1 most
      of Volpe’s work now involves the demonstration and deployment of existing
      technologies and the hosting, maintenance, and updating of numerous
      management information systems (MIS). This MIS work, in particular,
      constituted over one-fourth of Volpe’s funding in fiscal year (FY) 2003. Such
      work, however, represents a significant change from Volpe’s initial R&D
      focus. Moreover, the Department’s Chief Information Officer has questioned
      the Center’s continued operation and maintenance of DOT information
      systems, citing the need to identify a more appropriate host center for such
      operational work. Although Congress gave DOT, and, in turn, Volpe
      substantial latitude in determining the types of services it would provide,2
      questions nevertheless remain as to where the Center should focus its sizable
      resources and expertise and what its role and function should be with respect to
      the Department.
                                                            Figure 1. Volpe’s Obligations by DOT
ü Volpe’s changing customer base                          and Non-DOT Customers, FYs 1972-2003*
  raises questions as to whether
                                                                                                                                                                  Non-DOT
  the Center is a DOT or a non-                                        $250
                                                                                                                                                                   Funding
                                                                                                                                                                  35% FY'03
  DOT asset. Volpe has come to
                                                                       $200
  service a far more diversified                                                                    DOT Funding
                                                            Millions




                                                                       $150
  clientele,     with      non-DOT                                                                    90-100%
                                                                                                     FYs'72-'85
                                                                       $100
  customers      contributing    an                                                                                                                                        DOT
                                                                                                                                                                          Funding
  increasing share of the Center’s                                     $50
                                                                                                                                                                         65% FY'03
  funding and using a growing                                           $0
                                                                              1972
                                                                                     1974
                                                                                            1976
                                                                                                   1978
                                                                                                          1980
                                                                                                                 1982
                                                                                                                        1984
                                                                                                                               1986
                                                                                                                                      1988
                                                                                                                                             1990
                                                                                                                                                    1992
                                                                                                                                                           1994
                                                                                                                                                                  1996
                                                                                                                                                                         1998
                                                                                                                                                                                2000
                                                                                                                                                                                       2002




  portion of its staff time. As
  illustrated by Figure 1, non-DOT                            *1972 to 1975 estimated                                     DOT                               Non-DOT


1
    See Exhibit B for a summary of relevant memoranda and legislation on Volpe’s mission and role within
    DOT.
2
    Title 49 USC 328(a) notes: “Amounts in the [working capital] fund [for Volpe] are available for
    financing the activities of the Center, including research, development, testing, evaluation, analysis, and
    related activities the Secretary of Transportation approves, for the Department, other agencies, State and
    local governments, other public authorities, private organizations, and foreign countries.”
                                                                                                      3


      funding for Volpe grew from virtually nothing during the 1970s and early
      1980s to over one-third of the Center’s annual budget by FY 2003. Likewise,
      in FY 1994, 15 percent of Volpe’s Federal staff was assigned to non-DOT
      projects. By FY 2003, this had increased to 27 percent. While such work is
      permitted and in some cases encouraged by the Department, this growth can
      have both short-term and long-term repercussions, influencing not only what
      projects the Center accepts and how staff resources are allocated but also what
      core capabilities are developed and maintained.

ü Volpe has taken on non-DOT projects and maintained capabilities in areas
  that currently offer greater benefits to other agencies. As part of our audit,
  we identified eight non-DOT projects, totaling over $153 million in
  obligations, that had little direct relationship to transportation or immediate
  benefit to DOT. The RSPA Management Assessment also challenged Volpe’s
  involvement in the two largest of these projects (Environmental Protection
  Agency environmental remediation and Capitol Police physical security),
  noting that they were more appropriate for the private sector than for the
  Government.3 While non-DOT funding for such projects has allowed Volpe to
  maintain core capabilities and staff expertise in such areas as environmental
  remediation and physical security,4 there are no assurances that the Department
  will need these services from Volpe in the future or at what level and, if they
  are needed, whether Volpe (versus other public and private service providers)
  will be used.

Thus, short of converting Volpe to a Federally Funded Research and Development
Center (FFRDC),5 the Department needs to take tighter control and provide closer
oversight. Specifically, DOT senior leaders need to assume a more active role in
determining the Center’s mission, role, and activities within the Department and in
overseeing its project acceptance and planning processes to ensure that all future
work represents the most effective use of Volpe’s resources and has direct value to
the Department.

The Transportation Administrative Service Center (TASC) offers an example of
why the Department needs to provide closer oversight of Volpe. As with Volpe,
TASC was a non-appropriated activity and, as such, had incentive to operate
3
    On July 18, 2003, RSPA completed a management assessment of Volpe’s operations. Due to concerns
    raised by this study, the Acting RSPA Administrator rescinded Volpe’s authority to accept non-DOT
    work in November 2003.
4
    Non-DOT funding now represents a significant portion of Volpe’s environmental and security work. For
    FY 2000 through FY 2003, for example, non-DOT customers sponsored 66 percent ($84 million of
    $127 million) and 88 percent ($181 million of $206 million) of the Center’s human and natural
    environment work and security work, respectively.
5
    As of 2004, there were 36 FFRDCs throughout the Federal Government. These FFRDCs are funded
    either through direct appropriations or customer payments and are generally exempt from Federal
    acquisition regulations.
                                                                                                  4


independently and seek revenues from sources outside DOT. In December 2002,
however, the Secretary concluded that based on the recommendations of a
departmental review board, his own observations of TASC’s operations, and OIG
audit reports,6 fundamental structure and management changes were needed in
TASC. As a result, the Secretary abolished TASC as a separate entity within the
Department and transferred the majority of its employees to the Office of the
Assistant Secretary for Administration. As with TASC, the Department clearly
needs to provide closer oversight of Volpe.

Towards this end, we offer several recommendations relating to the establishment
of an oversight board for Volpe. While these recommendations cite a number of
important functions for the board, the final framework for the board is somewhat
flexible and open to discussion by DOT’s senior leadership. Nevertheless, two
key principles are essential in ensuring the board’s effectiveness. First, as long as
Volpe remains a part of DOT, the Center can no longer be left to operate as
independently as it has in the past. As this report notes, the lack of departmental
oversight has resulted in a number of questions and concerns regarding Volpe’s
activities in support of DOT and non-DOT customers. And second, the board
must not be seen as merely “rubber stamping” decisions already made by RSPA or
Volpe. Instead, it needs to provide meaningful input to the RSPA Administrator
on Volpe’s operations, including the Center’s mission, strategic and business
plans, core capabilities, and workload.

Based on our review, we therefore recommend that the Deputy Secretary of
Transportation establish an oversight board for Volpe composed of senior
departmental representatives from the Office of the Secretary of Transportation
(OST) and DOT Operating Administrations that reports directly to the Deputy
Secretary. We also recommend that the board:

      • Provide input to the RSPA Administrator in defining Volpe’s mission and
        role, as well as developing its strategic and business plans and core
        capabilities, to ensure they meet DOT’s needs.

      • Assist the RSPA Administrator in improving Center procedures for
        accepting projects to ensure that all future work agreements with both
        DOT and non-DOT customers represent the most effective use of Volpe’s
        resources and will have direct value to the Department.


6
    OIG Report Number MA-1998-073, “Transportation Administrative Service Center,” February 5, 1998;
    OIG Report Number MA-1999-062, “Transportation Administrative Service Center Computer Center,”
    March 3, 1999; OIG Report Number FI-2002-089, “Information Technology Omnibus Procurement
    Program,” April 15, 2002; and OIG Report Number FI-2003-010, “Shutdown of the Transportation
    Computer Center, TASC,” January 9, 2003.
                                                                                  5


    • Provide feedback to the Deputy Secretary and the RSPA Administrator
      about the continuing merit of long-standing interagency agreements and
      memoranda of understanding between DOT and other agencies. The board
      should also review and provide input on any future interagency agreements
      that may involve significant amounts of work for Volpe.

On July 19, 2004, RSPA provided comments (see Appendix) to our draft report.
RSPA concurred with our recommendation on establishing a DOT oversight board
for Volpe, noting that “… the Volpe Center would benefit from having such a
board.” RSPA further pointed out that through an internal, DOT-wide oversight
board, senior Departmental officials will have “… opportunity to furnish advice to
the RSPA Administrator … on work acceptance issues and procedures, core Volpe
staff capabilities to be developed and maintained, and the other benefits identified
in the Draft Report.” RSPA also agreed that the board should report directly to the
Deputy Secretary. Prior to its July 19, 2004 response, RSPA provided a number
of other comments on the draft report. Where appropriate, we made changes to
the final report in response to these comments.

While concurring with our first recommendation, RSPA did not specifically
address three additional recommendations relating to the board’s operation or
provide target dates for completing the corrective actions. We have requested that
RSPA respond to these recommendations within 30 days and include specific
action taken or planned and the target dates for completion.

BACKGROUND
The John A. Volpe National Transportation Systems Center, located in
Cambridge, Massachusetts, is an international center for R&D, engineering, and
analysis of transportation-related issues. Although part of DOT’s RSPA, Volpe
receives no direct appropriations from Congress. Instead, Volpe is entirely funded
through a fee-for-service structure in which all costs are covered by sponsored
project work. For FY 2003, Volpe received $232 million in funding (as measured
in new obligation authority), with 64 percent ($149 million) coming from DOT
sources and 36 percent ($83 million) from non-DOT sources. These funds support
a workforce of about 550 Federal and 900 contractor employees. By itself, Volpe
is larger than several of DOT’s smaller Operating Administrations, making up
over half of RSPA’s Federal staffing and two-thirds of its budgetary resources.

During the course of our audit, three other studies of Volpe were conducted—two
by RSPA and one at the direction of the Secretary. The first RSPA study’s
objective was to provide Volpe with feedback and direction to improve project
management. The RSPA management assessment team identified a number of
issues in a 53-page draft report in July 2003. The second RSPA study focused on
                                                                                 6


Volpe’s organizational structure. Based on this study, the Volpe Director, in a
memorandum dated April 13, 2004, proposed restructuring the Center and
establishing an oversight office in Washington, DC. On June 30, 2003, the
Secretary of Transportation established a departmental task force to review “all
aspects of Volpe organization.” This review, which is to be completed later this
year, will incorporate the work done by RSPA and the OIG.

On December 16, 2003, the Secretary proposed a major restructuring of DOT’s
research activities, with an aim of creating “a more focused research organization
within DOT that emphasizes and promotes innovative technology.” Under this
plan, RSPA would be renamed the Research and Innovative Technology
Administration. The new operating administration would retain RSPA’s R&D
functions (which includes Volpe), as well as integrating the Intelligent
Transportation Systems Joint Program Office and all the statistical and research
activities of the Department’s Bureau of Transportation Statistics. To further
focus the new organization’s research mission, several significant non-research
functions would be transferred from RSPA to other DOT organizations, such as
Emergency Transportation and Hazardous Materials Safety. If approved by
Congress, this restructuring will significantly affect RSPA’s role and
responsibilities within DOT, as well as improve the coordination of departmental
research activities.

RESULTS
Given Volpe’s size and relative importance in the Department, DOT senior leaders
need to have a greater say in determining the Center’s mission, core capabilities,
and workload. At present, Volpe has largely been left to determine the needs of
the Department, with many of its services being based more on available funding
and customer requests than high-level DOT input and strategic planning.
Moreover, with non-DOT work constituting a larger share of Volpe funding,
workload, and staffing, issues arise as to whether the Center is a DOT asset or one
more oriented towards meeting the needs of the greater community. Volpe’s
customers give it high marks for its services, but DOT senior leaders need to take
a more active role in determining the Center’s mission, role, and activities within
the Department and in overseeing its planning and project acceptance processes to
ensure that all future work represents the most effective use of Volpe’s resources
and has direct value to the Department.

Greater DOT Oversight Needed Given Volpe’s Changing Mission,
Workload, and Customer Base
Over the last 30 years, Volpe has experienced significant changes in its mission,
workload, and customer base. From an organization that was focused primarily on
doing R&D work for DOT, Volpe has evolved into one providing multiple
                                                                                                              7


services to both DOT and various other Federal and non-Federal customers. The
growth in non-DOT workload creates concerns as to whether Volpe is a DOT
asset or one more oriented towards meeting the needs of the larger community.7
Also, Volpe’s long-term maintenance of DOT MIS programs raises questions as to
whether such practices represent the most effective use of both Volpe and other
departmental resources. Given these issues and the Center’s evolving role within
the Department, senior DOT leaders need to reassess Volpe, with a goal of
clarifying its mission, role, and workload within DOT.

Volpe’s Mission, Role, and Workload Have Become Less R&D
Oriented
Volpe’s mission, role, and workload have evolved from performing mostly
transportation-related R&D to the demonstration and deployment of new
technologies and information systems. In the 1970s, for instance, approximately
80 percent of Volpe’s work involved the research and development of various
innovative new transportation technologies, including prototypes of buses and
light rail. By the 1990s and 2000s, Volpe’s workload had changed to where
approximately 80 to 85 percent involved the demonstration and deployment of
existing technologies and systems, such as the air traffic management system for
the Federal Aviation Administration (FAA), enhanced strategic mobility for the
Department of Defense (DOD), environmental remediation for the Environmental
Protection Agency (EPA), and physical security for the Capitol Police, as well as
the hosting and maintenance of numerous MIS projects for DOT.

In particular, Volpe’s MIS work has evolved from the development of new
systems to the management and updating of existing ones. For example, in
FY 2003 we found that only 7 percent ($4.6 million of $62.7 million) of DOT’s
funding in this area went to developing or providing expertise for new MIS
projects. In comparison, 93 percent ($58.1 million) was for Volpe’s management
and updating of existing information systems. Overall, Volpe was hosting,
maintaining, and updating 21 DOT MIS projects8 at a cost of $58.1 million in
FY 2003, which was 26 percent of Volpe’s entire obligations and nearly
17 percent of its direct Federal labor years.9 DOT customers have been reluctant
to transfer these systems from Volpe because of cost, space, or staffing concerns.
While the hosting, maintaining, and updating of MIS projects falls within the
Center’s statutory authority and is of value to DOT, such work does represent a
7
    After Volpe’s transfer from NASA in 1970, much of its early work came from DOT. Although Volpe
    could serve other clientele outside of DOT, it was not until the late 1980s that such work became a
    significant portion of the Center’s workload and funding.
8
    The largest MIS project that Volpe hosts, maintains, and updates is the Enhanced Traffic Management
    System. In FY 2003, Volpe obligated $20.2 million in FAA funds for this project and used 24.4 Federal
    labor years.
9
    Direct labor involves time charged to a specific project. Indirect labor (e.g., administrative and clerical)
    is pooled and allocated across all projects.
                                                                                                                                                           8


significant change from Volpe’s original mission of conducting R&D. Moreover,
DOT’s Chief Information Officer has questioned Volpe’s continued operation and
maintenance of MIS projects, noting that such services are inconsistent with the
Center’s charter and the Department needs to determine an appropriate host center
for such operational work.

Non-DOT Customers Are Assuming a Greater Share of Volpe’s
Funding and Staff Resources
Beyond the Center’s evolving mission and workload, Volpe’s customer base has
also changed. Overall, Volpe has come to service a far more diversified clientele,
with non-DOT customers contributing an increasing share of the Center’s funding
and using a growing portion of its staff time. For instance, through most of the
1970s and early 1980s, virtually 100 percent of Volpe’s work (as measured in
obligations) was for DOT-related projects. This changed during the mid-1980s
when DOD started using Volpe. Although DOD work has declined somewhat in
recent years, other Federal and non-Federal agencies have increased their
involvement with Volpe. By the early 2000s, Volpe was receiving over one-third
of its funding from non-DOT sources, with EPA and the Capitol Police being two
of its biggest customers. These two Agencies, in particular, have made up nearly
17 percent ($191 million of $1.1 billion) of Volpe’s new funding over the last
5 years. Figure 2 illustrates the relative shifts in Volpe funding from selected
DOT and non-DOT customers between FY 1972 and FY 2003.10

            Figure 2. Volpe Federal Obligations by Customer, FYs 1972-2003*

                    $250


                                                                                                                                           Other DOT
                    $200
                                                                                                                                              FAA

                    $150
         Millions




                                                                                                                                           FHWA/FMCSA


                                                                                                                                            FRA
                    $100
                                                                                                                                             FTA


                                                                                                                                           Other Non-DOT
                    $50
                                                                                                                                            (e.g., NASA,
                                                                                                                                            EPA, Capitol
                                                                                                                                               Police)
                      $0
                           1972

                                  1974

                                         1976

                                                1978

                                                       1980

                                                              1982

                                                                     1984

                                                                            1986

                                                                                   1988

                                                                                          1990

                                                                                                 1992

                                                                                                        1994

                                                                                                               1996

                                                                                                                      1998

                                                                                                                             2000

                                                                                                                                    2002




                                                                                                                                            DoD




      * See Exhibit D for a listing of organizational acronyms.


10
     See Exhibit C for a complete listing of Volpe DOT and non-DOT customers and associated obligations
     from FY 1994 to FY 2003.
                                                                                            9


Although Volpe’s funding and Federal workforce levels have remained fairly
constant over the last 10 years, this was achieved in large part through a
significant infusion of non-DOT resources. For instance, between FY 1994 and
FY 2003, new funding from DOT sources declined 15 percent—when adjusted for
inflation—as compared to a 19-percent increase from non-DOT sources. Volpe’s
Federal workforce levels also remained essentially unchanged during this time,
although the number of contract employees fell by nearly 28 percent. Volpe
officials attributed this decline to rising Federal and contractor labor costs,11
changing work mix, and relatively small growth in obligations. Increased funding
from outside DOT (and the drop in contractor labor) also resulted in Volpe
assigning a growing number of its Federal staff to non-DOT projects. For
example, in FY 1994, 15 percent of Volpe’s Federal staff (as measured in direct
labor years) was assigned to non-DOT projects. By FY 2003, this had increased to
27 percent.

Growth in non-DOT funding was an important factor in helping Volpe
compensate for reduced funding from DOT sources. Yet, this need to obtain new
funding can also significantly influence what work is accepted, how staff
resources are allocated, and which core capabilities are developed or maintained.
Greater departmental involvement in these decisions would help ensure the needs
of the Department are fully considered, as well as those of Volpe and its non-DOT
customers.

Volpe Had Significant Authority in Deciding Its Workload
Volpe’s changing role, workload, and customer base has, in part, been influenced
by the lack of DOT oversight and the Center’s significant authority in determining
its workload. Except for a brief period in the 1990s, the Volpe Director has
always had the authority to accept DOT projects and, to varying degrees, non-
DOT projects as illustrated by Figure 3. The authority to accept non-DOT work,
however, was of little importance during the 1970s and early 1980s since nearly
all of Volpe’s work involved DOT customers. This changed in 1985, when DOT
signed a Memorandum of Understanding with DOD. This agreement ushered in a
period of significant use of Volpe’s services by DOD and, later, other non-DOT
customers. (See Exhibit E for a chronological listing of major events in Volpe’s
history.)




11
     Between FY 1994 and FY 2003, Volpe Federal and contractor labor costs rose 48 percent and
     25 percent, respectively.
                                                                                                                     10


   Figure 3. Volpe’s Changing Approval Authority for DOT and Non-DOT Work

                                                    1977-1992                                 1995-11/2003
                 1970-1977
                                          Volpe received authority to accept          Volpe received authority to
        During most of this time, Volpe
                                            non-DOT work not exceeding                accept DOT and non-DOT
        had authority to accept all DOT
                                            $250,000. RSPA concurrence                work (except those involving
             and non-DOT work.
                                             required above this amount.                 foreign governments).


                  1970                    1980                        1990                            2000

                   1977                            1992-1995                                      11/2003
          For a 7-month period, all            Authority to accept all                   RSPA rescinded Volpe's
           non-DOT work required             DOT and non-DOT work                          authority to accept
              OST concurrence.               transferred back to RSPA.                      non-DOT work.




By late 1995, when Volpe regained       Figure 4. Volpe Obligations by DOT, DOD,
the authority to approve most non-           and Other Non-DOT Customers,
DOT work, DOD funding for                              FYs 1985-2003
Volpe had dropped by two-thirds
from its high in FY 1992. In           $160

addition, funding from DOT             $140

sources, which had significantly       $120
                                                                                    Other
increased during the late 1980s and    $100
                                                                                   Non-DOT
                                                                    DOT
early 1990s, would experience            $80
little change over the next decade       $60
(see Figure 4).           To help        $40
                                                         DOD
compensate for the funding               $20
shortfall, Volpe accepted a number        $0
                                                        1985


                                                               1987


                                                                        1989


                                                                               1991


                                                                                       1993


                                                                                               1995


                                                                                                       1997


                                                                                                              1999


                                                                                                                     2001


                                                                                                                            2003
of projects involving other
non-DOT customers, including the                   DOT       DOD        Other Non-DOT
Capitol Police, EPA, and NASA.
Overall, funding from other
non-DOT sources increased by 90 percent between FY 1996 and FY 2003, with
these customers providing one quarter of Volpe’s funding by the early 2000s.

Volpe’s involvement in a growing number of non-DOT projects raises several
concerns regarding the Center’s work acceptance process. The OIG first noted
problems regarding this process in a 1994 audit report (see Exhibit F). More
recently, RSPA’s 2003 Management Assessment challenged Volpe’s involvement
in two large non-DOT projects—EPA environmental remediation and Capitol
Police physical security—that were seen as being more appropriate for the private
sector. We also question these two projects, as well as six other projects identified
                                                                                                       11


during our audit. Totaling over                      Table 1. Volpe Projects with Little Direct
$153 million in obligations, these                      Relationship to Transportation or
eight projects have little direct                           Immediate Benefit to DOT
relationship to transportation or
                                                                                                       Total
immediate benefit to DOT (see                                  Project Title
                                                                                         Customer
                                                                                                    Obligations
Table 1). The two largest projects,                                                      Agency*
                                                                                                    as of 2/2004
EPA Region 8 environmental                         Region 8—Libby Montana Asbestos
                                                                                           EPA       $73,124,870
                                                   Site Assessment and Remediation
remediation and Capitol Police
physical      security,12     also                 Capitol Police Physical Security       USCP       $71,979,042
represented a sizable share of                     Technical and R&D Support for
                                                                                          DOD         $7,451,533
                                                   Combating Terrorism
Volpe’s funding over the last                      Region 9—Superfund Removal
several years (e.g., 26 percent of                                                         EPA         $330,662
                                                   Program
the Center’s new funding in                        Security Review of Treasury
                                                                                         Treasury       $77,982
                                                   Facilities**
FY 2002 and 16 percent in                          Organizational Design and
                                                                                           EPA          $68,265
FY 2003). Moreover, with the                       Implementation**
exception of Volpe’s initial work                  Back Bay National Wildlife Refuge       DOI          $11,094
for EPA Region 8, these non-DOT                    Performance Measures for Navy Chief
                                                                                          DOD            $7,872
                                                   Information Officer**
projects were approved by the
                                                                                          Total     $153,051,320
Volpe Director or Deputy Director
without needing the concurrence                      * See Exhibit D for a listing of organizational acronyms.
                                                    ** Project has been completed.
from senior DOT officials. 13

Based on issues raised by the RSPA Management Assessment, the Acting RSPA
Administrator rescinded Volpe’s authority to accept non-DOT work in
November 2003. A new formal delegation of authority for non-DOT work was
issued on May 7, 2004.14 Given the magnitude and importance of Volpe projects,
the Department needs to strengthen Volpe procedures for accepting work to
include a greater role for senior DOT leadership.

Volpe’s Planning Process and Core Capabilities Require Greater
Departmental Involvement
Volpe’s planning process and decisions concerning its core capabilities lack
sufficient input from senior DOT leadership regarding the Department’s needs and
where the Center should be focusing resources. Senior leadership involvement
would help identify these needs and ensure they are addressed. For instance,
although more than 90 percent of DOT customers who rated Volpe in our survey
12
     For comparative purposes, we considered Volpe’s work in these areas as two large projects. The actual
     number of individual projects being worked by Volpe includes 2 environmental remediation projects for
     EPA Region 8 and 60 physical security projects for the Capitol Police.
13
     Volpe officials noted that most of these projects were accepted based on prior memoranda of
     understanding signed by DOT senior officials. Moreover, with the Capitol Police project, the RSPA
     Administrator was given advanced notice of the Center’s intent to accept the overall project.
14
     Whereas this delegation of authority gives Volpe the right to negotiate new work with non-DOT
     customers, the authority to accept such work remains with the RSPA Administrator.
                                                                                                      12


were pleased with the Center’s ability to meet their needs, some of these same
respondents also cited various administrative, technical, and management areas
associated with transportation activities where Volpe could improve its operations,
including the ability to perform highway analysis, handle population-based safety
issues, and forecast future ridership.15

Volpe’s Planning Process Lacks Departmental Input
DOT leadership provides little direction to or oversight of Volpe’s planning
process with respect to drafting the Center’s strategic and business plans. These
plans are important because they lay out the direction for developing Volpe’s core
capabilities, the actions necessary to maintain such capabilities, and how the
Center will address the Department’s needs and strategic goals. Beyond the RSPA
Administrator’s final review, no other senior DOT stakeholder is involved in
either helping develop Volpe’s strategic and business plans or providing final
concurrence. Moreover, the need for greater customer input in Volpe’s planning
process was cited by the RSPA Management Assessment. In particular, this study
questioned the “soundness of the Volpe business plan,” noting that “… a more
customer oriented, market-based, proactive approach would result in a business
plan founded on sound business principles that would clearly define Volpe’s
corporate expectations.”

Under the current process, Volpe develops a strategic plan every 3 to 5 years and a
business plan every 1 to 2 years. Together, they frame the Center’s technical
direction and human capital requirements. As part of its planning process, Volpe
has hosted informal workshops and symposiums involving senior transportation
officials, academics, and industry representatives. Once the strategic and business
plans are completed, they are approved by the Volpe Director and forwarded to the
RSPA Administrator for final concurrence. DOT leadership—beyond the RSPA
Administrator—should be involved in Volpe’s planning process to help identify
the Department’s future needs and to ensure the Center strengthens or develops the
necessary capabilities to meet these needs.

Volpe Has Developed and Maintained Capabilities in Areas That Are
Supported More by Non-DOT Customers
This lack of involvement in Volpe’s planning process and the Center’s
considerable authority in accepting work has led to the development and
maintenance of core capabilities and staff expertise in areas, such as
environmental remediation and physical security, that are currently being
supported more by non-DOT customers than those within the Department.
Moreover, the potential for future DOT support in these two areas has lessened

15
     Volpe officials point out that the Center has established capabilities in these areas, but that these
     capabilities can only be utilized when the customer makes the funding and the work available.
                                                                                                           13


with the transfer of the Coast Guard and Transportation Security Administration to
the Department of Homeland Security. As the Volpe Director noted, “With the
transfer of TSA to the Department of Homeland Security, direct funding for this
type of work [security] is not readily available within the US Department of
Transportation.”

The relative lack of DOT                  Figure 5. Percent of Volpe’s Funding by
funding      for     security    and   Customer and DOT Strategic Goals, FY 2003
environmental work as compared
to the three other departmental             100%         12%           17%        18%
strategic goals is illustrated in            80%




                                                    Percentage
                                                                                                61%
                                             60%
Figure 5.     For example, only                          88%
                                                                                                            86%
                                             40%                       83%        82%
14 percent of Volpe’s obligations
                                             20%                                                39%
for security in FY 2003 involved                                                                            14%
                                               0%
DOT customers, as compared to                           Safety       Mobility Organizational   Human      Security
                                                                                Efficiency     Natural
86 percent        for     non-DOT                                                            Environment

customers. Likewise, in the area                                 Total DOT                    Total Non-DOT

of     human         and      natural
environment, 39 percent of
Volpe’s obligations in support of        Figure 6. Percent DOT Funding for Volpe
                                                      by Strategic Goals, FY 2003
this goal involved DOT projects,
as compared to 61 percent for
non-DOT customers. In contrast,                                Human and
                                                                                 S ecurity
for the other three DOT strategic                                Natural
                                                              Environment
                                                                                     4%
goals,       Volpe’s        FY 2003      Organizational           9%
                                           Efficiency
obligations for DOT projects                  10%
ranged between 82 percent and
88 percent.         Within DOT,                                                                               Safety
                                                                                                               51%
Volpe’s funding in support of the
                                                       M obility
five strategic goals in FY 2003                           26%
was $72 million for safety,
$37 million        for     mobility,
$14 million for organizational efficiency, $13 million for human and natural
environment, and $6 million for security. Of the five strategic goals, security
constituted about 4 percent of DOT’s total funding of Volpe (see Figure 6). It is
unlikely that this percentage will significantly change in the short term, given that
security is less than 1 percent of DOT’s FY 2005 budget request.

Due to the limited DOT funding for security, Volpe’s involvement—especially in
physical security—currently involves only two small DOT projects.16 These are

16
     In FY 2003, Volpe received approximately $21.3 million for physical security work. Of this amount,
     DOT and non-DOT sponsors provided $1.1 million (5 percent) and $20.2 million (95 percent),
     respectively.
                                                                                             14


the development of security handbooks and a series of security forums for the
Federal Transit Administration and an assessment of intercity bus service security
for the Federal Motor Carrier Safety Administration. Nevertheless, the Volpe
Director sees the Center’s continued involvement in this area as being extremely
important to DOT as well as the larger transportation community, with the
potential for multiple spin-off benefits. In support of this position, Volpe officials
point to the Center’s current work on a number of non-DOT projects, such as
developing and deploying vessel and vehicle identification systems for DOD and
designing an integrated security system for Boston’s new Silver Line bus tunnel.

Volpe officials note that the Center over the last 30 years has developed expertise
in environmental remediation and physical security for such DOT customers as the
Coast Guard, FAA, and Federal Railroad Administration. As DOT funding
dwindled, Volpe sought to leverage funds from non-DOT customers to help
maintain these capabilities, which may be needed in the future by the Department.
As the Volpe Director points out, without the support of non-DOT customers,
Volpe would not have been able to maintain security and environmental
remediation as core capabilities. While such work is important, senior DOT
leadership needs to assess Volpe’s continued work in this area and whether the
resulting expertise is something the Department wants to continue to foster and, if
so, at what level.

DOT Needs To Establish a Board To Oversee Volpe
The Department should establish a board to oversee Volpe’s operations. The
creation of an oversight board for Volpe has been proposed in three different
reports: two DOT studies17 and, more recently, the RSPA Management
Assessment. In particular, RSPA’s assessment provided the following reasons for
establishing a board:

         The input of guidance external to Volpe is needed to stay in the
         forefront of changing technologies in the transportation system. The
         RSPA Administrator should consider establishing a three to five
         member “Board of Directors,” independent of Volpe, to represent
         Volpe’s stakeholders.…The Board could be made up of senior DOT
         officials from RSPA, the Operating Administrations, and OST to
         provide direction, oversight, and feedback to Volpe.

We also support establishing a board to oversee Volpe operations for many of the
same reasons. First, a board would provide more direct feedback to the RSPA
Administrator on the particular needs (current and future) of each major DOT

17
     Both DOT studies were issued in 1995, with one addressing a reorganization of R&D within the
     Department and the other examining the option of privatizing Volpe.
                                                                                                            15


customer. Second, board members could gain a greater appreciation of what
Volpe has to offer, as well as what services it is currently providing to other DOT
and non-DOT customers. Third, a board would assist the RSPA Administrator in
determining the types of non-DOT projects Volpe should accept. And fourth,
since many of the larger DOT customers maintain their own research centers, the
board could help coordinate the resources and talents among these centers with
Volpe—a key goal of the Secretary’s proposed reorganization of DOT’s research
functions. Table 2 provides a comparison of Volpe with some of the other DOT
research centers with respect to sponsor, percent non-DOT work performed,
Federal staffing levels, and FY 2003 funding. Because these centers are in
different parts of DOT and, except for Volpe, are more narrowly focused, the
danger is that without guidance DOT research efforts may become increasingly
less integrated and less efficient. Therefore, the existence of these other centers
and the similarity of some of their work to Volpe’s support the need for greater
coordination to avoid unnecessary duplication or competition, as well as to
maximize staff expertise and resources.18

                           Table 2. Selected DOT Research Facilities
                                                                                                   FY 2003
                                        DOT       Non-DOT           Federal         Contractor
                Center                                                                             Funding
                                      Sponsor*    Workload          Staffing         Staffing
                                                                                                  (Millions)

     Volpe                            RSPA       35% to 40%+      550 FTEs**           900         $261.0

     Technical Center                  FAA          <5%         1,299 FTEs**          1,425        $424.0

     Turner-Fairbank Highway
                                      FHWA        Minimal         109 FTEs**        400-500         $82.0
     Research Center
     Vehicle Research and Test
                                      NHTSA       Minimal          28 FTEs**           75           $17.0
     Center
                                      FHWA                          1 FTE**             10
     National Crash Analysis Center                 ***                                              $1.5
                                      NHTSA                       (part-time)       (part-time)
   * See Exhibit D for a listing of organizational acronyms.
  ** Full-time Equivalent
 *** Cooperative agreement with George Washington University and private industry




18
      A Volpe oversight board could also help RSPA coordinate research activities within DOT, a shortfall
      identified in a recent Government Accountability Office audit report (dated May 2003). Specifically,
      the report stated that RSPA had not met all congressional and DOT requirements for coordinating
      ongoing departmental research efforts to avoid duplication.
                                                                                                       16


RECOMMENDATIONS
We recommend that the Deputy Secretary of Transportation:

1. Establish an oversight board for Volpe composed of senior departmental
   representatives from OST and DOT Operating Administrations that reports
   directly to the Deputy Secretary.

The board will:

2. Provide input to the RSPA Administrator in defining Volpe’s mission, role,
   strategic plan, business plan, and core capabilities to ensure they meet DOT’s
   current and future needs.

3. Provide input to the RSPA Administrator in improving procedures relating to
   how Volpe accepts projects to ensure all future work agreements with DOT
   and non-DOT customers represent the most effective use of Volpe’s resources
   and will have direct value to the Department.19

4. Provide input to the Deputy Secretary and the RSPA Administrator on the
   continuing merits of long-standing interagency agreements and memoranda of
   understanding between DOT and non-DOT agencies (such as DOD and EPA).
   The board should also review and provide advice on all proposed interagency
   agreements that may produce significant amounts of work for Volpe.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
On July 19, 2004, RSPA provided comments (see Appendix) to our draft report.
RSPA concurred with our recommendation on establishing a DOT oversight board
for Volpe, noting that “… the Volpe Center would benefit from having such a
board.” RSPA further pointed out that through an internal, DOT-wide oversight
board, senior Departmental officials will have “… opportunity to furnish advice to
the RSPA Administrator…on work acceptance issues and procedures, core Volpe
staff capabilities to be developed and maintained, and the other benefits identified
in the Draft Report.” RSPA also agreed that the board should report directly to the
Deputy Secretary. Prior to its July 19, 2004 response, RSPA provided a number
of additional comments to the draft report. Where appropriate, we made changes
to the final report in response to these comments.

19
     As part of these improved procedures, the board should be responsible for reviewing “proposed” project
     agreements involving large non-DOT projects and providing advice to the RSPA Administrator as to
     whether they should be accepted or not. For DOT and small non-DOT projects (as well as small
     funding increases), RSPA would only be responsible for keeping the board apprised of which projects
     are being accepted or declined.
                                                                               17


ACTION REQUIRED
While concurring with our first recommendation, RSPA did not specifically
address three additional recommendations relating to the board’s operation. In
accordance with DOT Order 8000.1C, therefore, we would appreciate receiving
your written comments to our final report within 30 calendar days. For each of the
four recommendations, please indicate the specific action taken or planned and the
target date for completion. If you do not concur, please provide your rationale.
You may provide alternative courses of action that you believe would resolve the
issues presented in this report.

We appreciate the courtesies and cooperation of Volpe, RSPA, and other
DOT representatives during this audit. If you have any questions concerning this
report, please call me at (202) 366-1992 or Robin K. Hunt, Deputy Assistant
Inspector General for Hazardous Materials, Security and Special Programs, at
(415) 744-3090.

                                        #

cc:   David Lev, Acting Deputy Director of Volpe, DTS-2
      Linda Combs, Assistant Secretary for Budget and
        Programs/Chief Financial Officer, B-1
      Martin Gertel, Audit Liaison, M-1
                                                                                                 18




EXHIBIT A. OBJECTIVE, SCOPE, AND
METHODOLOGY
The audit objective was to determine how Volpe’s role and functions have
changed over the years and whether current Volpe activities meet DOT needs. In
addressing this objective, we reviewed pertinent legislation, memoranda, policy
directives, executive decisions, DOT and Volpe policy guidance, and plans related
to Volpe activities. We determined how Volpe’s role and functions have changed
over the years, including an analysis of workload, revenue sources, annual funding
levels, and mix of Volpe’s DOT and non-DOT customers for the past 30 years and
of Federal and contractor staffing levels for the past 10 years.

We assessed whether Volpe activities met departmental needs (past, present, and
future) through a satisfaction survey of DOT customers.20 The survey addressed
the level of satisfaction with Volpe performance on past and present projects and
the likelihood the customers would select Volpe for future projects. To determine
why Volpe accepted some non-DOT work that appears to have little or no
relationship to transportation or value to the Department, we judgmentally selected
45 of 247 projects, reviewed associated memoranda of understanding, and
discussed the rationale for performing this work with Volpe management. In
addition, we reviewed policy regarding project acceptance and determined
whether the policy was followed. We also determined how Volpe identified
present and future DOT needs and how it plans to meet these needs.

We reviewed several studies and reports on Volpe, including two OIG audit
reports (see Exhibit F), DOT reports on Volpe reorganization and privatization
(March and June 1995), and a draft RSPA Management Assessment report
(July 18, 2003). We also met with the RSPA Management Assessment team to
discuss its observations and reviewed related briefings and consultant reports on
follow-up actions being taken. Throughout the process, we met with the Volpe
Director and division officials to gain an understanding of the changes and to
obtain documents as needed.

We conducted work at Volpe in Cambridge, MA; at RSPA; and at other selected
DOT and non-DOT offices in Washington, DC (see Exhibit G). We conducted the
audit from July 2003 through May 2004. The audit was done in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States and included tests of internal controls as were considered necessary.

20
     Our sample was based on 60 randomly selected DOT projects. Since some DOT officials oversaw more
     than one project, the actual number of customers surveyed was 55.


Exhibit A. Objecti ve, Scope, and Methodolog y
                                                                                19


In the conduct of this audit, we used computer-generated data from Volpe. We did
not assess the general and application controls for each of the automated systems.
For some of these data, such as yearly funding totals, we relied on recent audit
work done by another office within our organization. In other instances, we were
able to compare several data sources to ensure consistency in the information
received from Volpe. When discrepancies were found, we followed up with
Volpe officials to determine the basis for these differences and to obtain new data
runs when justified.




Exhibit A. Objecti ve, Scope, and Methodolog y
                                                                                           20




EXHIBIT B. MEMORANDA AND LEGISLATION ON
VOLPE’S MISSION AND ROLE WITHIN DOT
                   Memorandum for the President from Bureau of the Budget supports
                   DOT’s proposal to take over NASA’s ERC (Electronics Research Center).
                   This memorandum states: “To an increasing degree the success of the
                   Department of Transportation’s programs will depend upon the
March 13, 1970     effectiveness of its research and development.” The memorandum further
                   notes: “We also share the view that ERC could become a useful facility
                   within the Department’s research and development program.…We believe
                   that transfer of ERC would give the Administration and DOT good
                   opportunity to strengthen DOT’s R&D planning and management.”
                   Presidential memorandum approves proposal to acquire NASA’s ERC for
                   use by DOT. In the memorandum, the President concurs with “…the need
March 19, 1970     to view transportation in the Nation as a total system and to improve the
                   Department’s mechanism for planning and conducting research and
                   development.”
                   Memorandum from the Under Secretary of DOT announces the transfer of
                   NASA’s ERC to DOT, effective July 1, 1970. The memorandum notes:
March 30, 1970
                   “In conjunction with this action, the Department has been directed to
                   accelerate its R&D planning….”
                   Memorandum to the General Services Administration from Office of the
                   Secretary of Transportation requests transfer of NASA’s ERC to DOT.
                   This request states: “The ERC will be utilized and developed as a central
                   research and development facility of the Department of Transportation in
                   furtherance of DOT’s objective of achieving an integrated national goods
                   and passenger carrying transportation system.” The Center “…will also
                   provide initial additional capability for current programs and a reasonable
May 12, 1970       basis for expansion for future R&D programs. It will promote R&D in
                   support of such transportation problems as:
                         Urban transit and traffic congestion
                         Air traffic control and airport/airways expansion
                         Air, highway, and marine and rail safety
                         Transportation impact on the environment (including pollution
                             control and noise abatement)
                         Coordination and integration of intermodal transportation systems.”
                   Section 9(r)(1) of the Department of Transportation Act, 49 USC
                   1657(r)(1) authorizes the Secretary to establish a working capital fund
                   (fund) for financing the activities of the Transportation Systems Center
May 30, 1980       (Center). 49 USC 328(a) codifies this legislation and states that
 and               “...amounts in the fund are available for financing the activities of the
January 12, 1983   Center, including research, development, testing, evaluation, analysis, and
                   related activities the Secretary of Transportation approves, for the
                   Department, other agencies, State and local governments, other public
                   authorities, private organizations, and foreign countries.”




Exhibit B. Memoranda and Legislation on Volpe’s Mission and Rol e
Within DOT
                                                                                                   21



EXHIBIT C. VOLPE OBLIGATIONS BY CUSTOMER,
FYs 1994-2003 ($ in Millions)21
                         FY      FY       FY      FY       FY      FY      FY   FY   FY   FY
        DOT22
                        1994    1995     1996    1997     1998    1999    2000 2001 2002 2003
FAA                       $82     $89      $83     $84      $81     $70     $62 $73 $73 $70
FHWA                        8       8        8       8        9      11      12  12    8    8
FMCSA                       0       0        0       0        0       0       0   5   14   17
FRA                        12       9        9       9       10      10      11  13   12   13
FTA                         6       6        5       5        8       8       5   7    7   10
NHTSA                       4       5        8       8        8       7       8  11   16   13
OST                         1       2        1       1        3       1       1   1    1    1
RSPA                        4       4        4       6        7       5       6   6    7    6
USCG23                     15      10        6       7        6       6       5   7    0    0
Other DOT                  12      12       10      11       10       7       6   7    7    4
Total DOT               $144     $145    $134     $139    $142     $125    $116 $142 $145 $142
Capitol Police              0        0       0        0       0       4       14     15     27      13
DOE                         7        6       7        8       9       8        6      4       2      2
DOD                        51      24       22      24       19      18       37     17     22      21
DOJ                         0        1       4        3       2       0        0      0       0      0
DOS                         3        3       0        0       1       0        0      3       6      4
EPA                         2        3       1        1       1       7        9     22     20      17
NASA                        0        0       0        1       2       2        3      8       6     14
Treasury                    2        2       8        8       5       1        0      0       0      0
USCG                        0        0       0        0       0       0        0      0       5      3
USPS                        1        8      10      14        9       5        1      2       2      1
Other Federal               7        6       0        2       1       1        3      1       2      1
Non-Federal                 0        0       0        4       5       2        2      2       2      2
Total Non-DOT             $73     $53      $52     $65     $54      $48     $75     $74    $94    $78
Total Obligations       $217     $198    $186     $204    $196     $173    $191 $216 $239 $220


21
     Numbers are rounded.
22
     See Exhibit D for a listing of organizational acronyms.
23
     With the transfer of USCG to the Department of Homeland Security, Volpe reclassified it as non-DOT
     starting in FY 2002.




Exhibit C. Vol pe Obligations b y Customer, FYs 1994-2003 ($ in
Millions)
                                                                     22




EXHIBIT D. ORGANIZATIONAL ACRONYMS

  DOD               Department of Defense
  DOE               Department of Energy
  DOI               Department of the Interior
  DOJ               Department of Justice
  DOS               Department of State
  DOT               Department of Transportation
  EPA               Environmental Protection Agency
  FAA               Federal Aviation Administration
  FHWA              Federal Highway Administration
  FMCSA             Federal Motor Carrier Safety Administration
  FRA               Federal Railroad Administration
  FTA               Federal Transit Administration
  NASA              National Aeronautics and Space Administration
  NHTSA             National Highway Traffic Safety Administration
  OIG               Office of Inspector General
  OST               Office of the Secretary of Transportation
  RSPA              Research and Special Programs Administration
  TSA               Transportation Security Administration
  USCG              United States Coast Guard
  USCP              United States Capitol Police
  USPS              United States Postal Service




Exhibit D. Organizational Acronyms
                                                                                                   23




EXHIBIT E. SIGNIFICANT VOLPE EVENTS24
                              President announced the transfer of the NASA Electronics Research
 March 25, 1970
                              Center (ERC) to DOT.
                              Effective date for transfer of the NASA ERC to DOT’s Office of the
 July 1, 1970                 Assistant Secretary for Systems Development and Technology. ERC
                              was renamed the Transportation Systems Center (TSC).
                              TSC was consolidated with DOT’s Materials Transportation Bureau to
 September 23, 1977
                              form the Research and Special Programs Directorate (RSPD).
                              Functions relating to the administration of transportation safety and
 December 1977                research programs were transferred from OST to RSPD and assigned to
                              the newly established Transportation Programs Bureau (TPB).
                              RSPD was renamed the Research and Special Programs Administration
 April 27, 1978
                              (RSPA).
                              Section 9(r)(1) of the Department of Transportation Act, 49 U.S.C.
 May 30, 1980                 1657(r)(1), authorized the Secretary to establish a working capital fund
                              for financing the activities of the TSC.
                              DOT Order 2300.7 “Financing Activities at TSC” established policies to
 February 23, 1981
                              govern the financing of work performed by TSC.
                              Title 49 USC Section 328 codified previous legislation concerning
 January 12, 1983
                              TSC’s working capital fund.
                              Memorandum of understanding signed between the DOD and the
                              Assistant Secretary of Transportation (Policy and International Affairs).
                              Under this agreement, TSC was available to provide support in the
 April 12, 1985               following fields: systems research and analysis; operations and logistics;
                              management information systems; supporting technology in command,
                              control, communications, and intelligence; and supporting technology in
                              transportation vehicles and structures.
                              TSC was renamed the John A. Volpe National Transportation Systems
 September 18, 1990
                              Center in Secretary Volpe’s honor.
                              RSPA was formally established by statute (49 U.S.C. Section 112), with
                              the Administrator responsible for carrying out the duties and powers
 October 24, 1992
                              vested in the Secretary with respect to activities of the Volpe National
                              Transportation Systems Center.
                              First RSPA Administrator appointed by the President and confirmed by
 September 22, 1994
                              the Senate was sworn into office.
                              RSPA Administrator delegated authority to the Volpe Director to accept
                              work and enter into agreements with: (1) OST and operating elements of
 September 28, 1995
                              the Department, and (2) other Federal agencies (i.e., non-DOT) where
                              general working agreements are not applicable.

24
     See Exhibit D for a listing of organizational acronyms.


Exhibit E. Significant Volpe Events
                                                                                     24



                   Memorandum of understanding signed between EPA and RSPA
                   allowing Volpe’s support in the following areas:
                   • Transportation related to environmental issues,
                   • Federal facilities compliance issues,
July 12, 1996      • Total systems engineering approach,
                   • Strategic planning and business reengineering skills,
                   • Technical expertise in state-of-the-art information systems
                       development,
                   • Technology transfer from other environmental initiatives, and
                   • Expertise in the movement of hazardous and radioactive materials.
                   Interagency Agreement signed between the United States Capitol Police
May 19, 1999
                   and Volpe.
                   Volpe Order 5000.4B (cancelled 5000.4A, dated February 13, 1996)
                   provided policy on work acceptance at Volpe and defined procedures for
January 14, 2002   preparing and processing general work agreements, reimburseable
                   agreements, memoranda of understanding, and memoranda of
                   agreement.
                   RSPA Acting Administrator rescinded the Volpe Director’s 1995
                   delegated authority to accept work from non-DOT Federal and
November 2003
                   state/local agencies where a general working agreement is not
                   applicable.
                   RSPA Deputy Administrator issued a new delegation of authority to the
                   Volpe Director for accepting work. Under the new delegation, the RSPA
May 7, 2004
                   Administrator retained the authority to accept new work from non-DOT
                   organizations.




Exhibit E. Significant Volpe Events
                                                                                                      25




EXHIBIT F. PRIOR AUDIT COVERAGE
OIG Report Number R2-RS-4-021, “Project Acceptance Review
Volpe National Transportation System Center,” June 8, 1994
We found that while Volpe contributed significantly to DOT’s research programs,
the Center accepted projects with little or no research value and projects outside its
basic mission of transportation research, development, testing, and evaluation.
The report also noted that Volpe did not de-obligate and return excess funds from
projects amounting to about $66 million at the end of FY 1992. In response to the
OIG’s report findings and recommendations, Volpe developed formal criteria
limiting the acceptance of projects and evaluated proposed work against these
criteria. A project-by-project review was also performed to determine which
projects were completed or otherwise inactive so that remaining obligational
authority could be returned to the sponsoring agency.


OIG Report Number MH-2002-071, “Office of Defects
Investigation, National Highway Traffic Safety Administration,”
January 3, 2002
We identified a number of deficiencies in Volpe’s work with the Office of Defects
Investigation in developing a new information system for tracking safety defects
(later referred to as the Advanced Retrieval “Tire, Equipment, Motor Vehicle”
Information System or ARTEMIS).25          The OIG recommended the NHTSA
Administrator obtain the services of an independent entity to validate and verify
the contractor’s progress, reduce development risk, and advise NHTSA of its
findings. The report further recommended that NHTSA review and edit the data
in the defect database for accuracy and completeness before transferring the data
to the new information system.




25
     The OIG is conducting a follow-up audit of ARTEMIS project, with a report due later this year.




Exhibit F. Prior Au dit Coverage
                                                                     26




EXHIBIT G. ACTIVITIES VISITED OR CONTACTED

  • Volpe National Transportation Systems Center, Cambridge, MA

  • Research and Special Programs Administration, Washington, DC

  • Office of the Secretary of Transportation, Washington, DC

  • House Transportation and Treasury Subcommittee, Washington, DC

  • Federal Aviation Administration, Washington, DC

  • Federal Highway Administration, Washington, DC

  • Federal Transit Administration, Washington, DC

  • National Highway Traffic Safety Administration, Washington, DC

  • Surface Transportation Board, Washington, DC

  • William J. Hughes Technical Center, Atlantic City, NJ

  • Turner-Fairbank Highway Research Center, McLean, VA

  • Vehicle Research and Testing Center, Columbus, OH

  • National Crash Analysis Center, George Washington University,
    Washington, DC




Exhibit G. Acti vities Visited or Contacted
                                                                                                      27




           APPENDIX. MANAGEMENT COMMENTS


           U.S. Department
           of Transportation
           Research and
           Special Programs
           Administration




Subject:   INFORMATION: Draft Report on the Volpe National                       Date:        July 19, 2004
           Transportation Systems Center - Project No. 03B3010B000


  From:    Samuel G. Bonasso, Deputy Administrator                                Reply to
                                                                                  Attn. of:
           Research and Special Programs Administration

    To:    Kenneth M. Mead
           Inspector General


           This memorandum responds to your Office’s Draft Report on the RSPA/Volpe National
           Transportation Systems Center, Project No. 03B301B000, which we received for
           comment on July 9, 2004. Per your transmittal memorandum, this report is the first of
           three audit reports on the Volpe Center your Office is preparing in response to a request
           from Congressman Istook, Chair of the House Transportation Appropriations
           Subcommittee. This Draft Report responds to the following question posed by
           Congressman Istook: “how Volpe's role and functions have changed over the years and
           whether current Volpe activities meet the Department of Transportation's (DOT) needs.”
           I note that this Draft Report is being issued ten years after your last review of the Volpe
           Center. That report resulted in improved processes for work acceptance and funds
           management at the Center, and I am confident that this Draft Report, when finalized, will
           also produce beneficial changes.

           The Draft Report recommends establishment of a Departmental oversight board for the
           Volpe Center that would provide a wide range of advisory business planning guidance to
           the RSPA Administrator and the Center. I agree with your conclusion that the Volpe
           Center would benefit from having such a board. As the Draft Report recognizes,
           Congress gave the Secretary very broad discretion in determining Volpe activities and its
           customers. Through the mechanism of an internal, DOT-wide oversight board, senior
           Departmental officials will have opportunity to furnish advice to the RSPA Administrator
           as to the exercise of this discretion, for example, to provide guidance on work acceptance
           issues and procedures, core Volpe staff capabilities to be developed and maintained, and
           the other benefits identified in the Draft Report. As the Draft Report observes,

           Appendix. Management Comment s
                                                                                    28


participation on this oversight board would also enable Departmental leadership serving
as oversight board members to become familiar with Volpe’s capabilities and the range
of services currently being provided to its DOT and non-DOT customers. I also agree
with you that having this board report directly to the Deputy Secretary will serve to
emphasize the Volpe Center's importance to the entire Department. This reporting
relationship should also help ensure the board's success by assuring the active
participation of senior Departmental leadership. The Draft Report’s recommendation has
now been carefully structured to recognize and preserve the RSPA Administrator’s
statutory responsibilities with respect to activities of the Volpe Center.

I look forward to your support as RSPA moves forward to implement this
recommendation. We will provide an implementation plan to you shortly.



       cc:
       K. Van Tine, S-2
       J. Flaherty, S-1




Appendix. Management Comment s
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not part of the original document but have been
added here to accommodate assistive technology.
Figure 1. Volpe’s Obligations by DOT and Non-DOT Customers, FYs 1972
to 2003. Amounts are in millions.
 Fiscal Year      DOT      Non-DOT        Total
    1972           $35        $0           $35
    1973           $30        $0           $30
    1974           $45        $0           $45
    1975           $47        $0           $47
    1976           $58        $0           $58
    1977           $54        $0           $54
    1978           $62        $0           $62
    1979           $66        $1           $67
    1980           $63        $1           $64
    1981           $68        $1           $69
    1982           $42        $2           $44
    1983           $44        $4           $48
    1984           $59        $3           $62
    1985           $73        $3           $76
    1986           $65       $10           $75
    1987           $61       $26           $87
    1988           $81       $32          $113
    1989           $91       $34          $125
    1990          $107       $48          $155
    1991          $127       $66          $193
    1992          $136       $77          $213
    1993          $152       $71          $223
    1994          $144       $73          $217
    1995          $145       $53          $198
    1996          $134       $52          $186
    1997          $139       $65          $204
    1998          $142       $54          $196
    1999          $125       $48          $173
    2000          $116       $75          $191
    2001          $142       $74          $216
    2002          $145       $94          $239
    2003          $142       $78          $220

Published Audit Report on the Role and Functions of the Volpe National
Transportation Systems Center (508 Compl) 8-04-04
Note:   DOT funding 90 to 100 percent for FYs 1972 to 1985.
Note:   DOT funding 65 percent in FY 2003.
Note:   Non-DOT funding 35 percent in FY 2003.
Note:   Figures for FYs 1972 to 1975 are estimated.

Figure 2. Volpe Federal Obligations by Customer, FYs 1972 to 2003.
Amounts are in millions.
                     Other
 Fiscal                                       FHWA/              Other
            DOD      Non-     FTA      FRA                FAA            Total
 Year                                         FMCSA              DOT
                     DOT
  1972        $0       $0       $9      $1       $1       $11      $13    $35
  1973        $0       $0       $8      $2       $1        $7      $12    $30
  1974        $0       $0      $12      $5       $1       $13      $14    $45
  1975        $0       $0      $11      $8       $1       $10      $17    $47
  1976        $0       $0      $17     $11       $1       $11      $18    $58
  1977        $0       $0      $18     $12       $0        $9      $15    $54
  1978        $0       $0      $21     $12       $0       $10      $19    $62
  1979        $0       $1      $25     $12       $0       $11      $18    $67
  1980        $0       $1      $24      $9       $1       $11      $18    $64
  1981        $0       $1      $25      $8       $1       $14      $20    $69
  1982        $0       $2      $17      $4       $1        $7      $13    $44
  1983        $0       $4      $13      $3       $1       $12      $15    $48
  1984        $0       $3      $10      $4       $1       $30      $14    $62
  1985        $1       $2       $6      $4       $1       $44      $18    $76
  1986        $9       $1       $4      $4       $0       $43      $14    $75
  1987       $25       $1       $1      $3       $0       $41      $16   $87
  1988       $30       $2       $1      $3       $0       $57      $20   $113
  1989       $32       $2       $1      $2       $0       $66      $22   $125
  1990       $44       $4       $2      $6       $1       $77      $21   $155
  1991       $63       $3       $5      $8       $2       $87      $25   $193
  1992       $70       $7       $6      $8       $5       $89      $28   $213
  1993       $56      $15       $8     $11       $9       $85      $39   $223
  1994       $51      $22       $6     $12       $8       $82      $36   $217
  1995       $24      $29       $6      $9       $8       $89      $33   $198
  1996       $22      $30       $5      $9       $8       $83      $29   $186
  1997       $24      $41       $5      $9       $8       $84      $33   $204


Published Audit Report on the Role and Functions of the Volpe National
Transportation Systems Center (508 Compl) 8-04-04
  1998        $19      $35        $8     $10        $9       $81      $34     $196
  1999        $18      $30        $8     $10       $11       $70      $26     $173
  2000        $37      $38        $5     $11       $12       $62      $26     $191
  2001        $17      $57        $7     $12       $17       $73      $33     $216
  2002        $22      $72        $7     $12       $22       $73      $31     $239
  2003        $21      $57       $10     $13       $25       $70      $24     $220

Note: Other Non-DOT includes NASA, EPA, and Capitol Police.

Figure 3. Volpe’s Changing Approval Authority for DOT and Non-DOT
Work


     Dates                                     Comments
                    During most of this time, Volpe had authority to accept all DOT and
   1970-1977
                                              non-DOT work.
                          For a 7-month period, all non-DOT work required OST
     1977
                                                concurrence.
                     Volpe received authority to accept non-DOT work not exceeding
   1977-1992
                        $250,000. RSPA concurrence required above this amount.
                    Authority to accept all DOT and non-DOT work transferred back to
   1992-1995
                                                   RSPA.
                    Volpe received authority to accept DOT and non-DOT work (except
 1995-11/2003
                                   those involving foreign governments).
    11/2003            RSPA rescinded Volpe’s authority to accept non-DOT work.

Figure 4. Volpe Obligations by DOT, DOD, and Other Non-DOT Customers,
FYs 1985 to 2003. Amounts are in millions.

 Fiscal Year        DOT      DOD       Other Non-DOT
    1985             $73      $1              $2
    1986             $65      $9              $1
    1987             $61     $25              $1
    1988             $81     $30              $2
    1989             $91     $32              $2
    1990            $107     $44              $4
    1991            $127     $63              $3
    1992            $136     $70              $7
    1993            $152     $56             $15

Published Audit Report on the Role and Functions of the Volpe National
Transportation Systems Center (508 Compl) 8-04-04
     1994        $144       $51              $22
     1995        $145       $24              $29
     1996        $134       $22              $30
     1997        $139       $24              $41
     1998        $142       $19              $35
     1999        $125       $18              $30
     2000        $116       $37              $38
     2001        $142       $17              $57
     2002        $145       $22              $72
     2003        $142       $21              $57

Figure 5. Percent of Volpe’s Funding by Customer and DOT Strategic Goals,
FY 2003.


                                                             Human
                                          Organizational
    Sponsor        Safety      Mobility                      Natural     Security
                                            Efficiency
                                                           Environment
Total DOT           88%          83%           82%             39%        14%
Total Non-DOT       12%          17%           18%             61%        86%

Figure 6. Percent DOT Funding for Volpe by Strategic Goals, FY 2003.

              Strategic Goal                         Percent
Safety                                                51%
Mobility                                              26%
Organizational Efficiency                             10%
Human and Natural Environment                          9%
Security                                               4%




Published Audit Report on the Role and Functions of the Volpe National
Transportation Systems Center (508 Compl) 8-04-04
